TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Sufficient Emphasis Was Not
                 Placed on Resolving Security Vulnerabilities
                    When Restoring the Electronic Fraud
                              Detection System



                                           June 14, 2007

                              Reference Number: 2007-20-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 14, 2007


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION
                CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Sufficient Emphasis Was Not Placed on
                              Resolving Security Vulnerabilities When Restoring the Electronic
                              Fraud Detection System (Audit # 200720028)

 This report presents the results of our review to assess the effectiveness of the security controls
 testing conducted as part of the certification and accreditation of the Electronic Fraud Detection
 System (hereafter referred to as the EFDS or System). We conducted this review to follow up on
 our Fiscal Year 2006 audit report,1 which stated the security of the System had not been properly
 assessed since 2001.

 Impact on the Taxpayer
 The EFDS is used by the Internal Revenue Service (IRS) Criminal Investigation Division to
 detect fraudulent returns and is the IRS’ second largest repository of taxpayer data. Security
 over the System is vital to ensure it is available to prevent fraud and to protect the privacy of
 taxpayers’ personal information. Because the focus was to restore the System for the start of the
 2007 Filing Season,2 insufficient emphasis was placed on the System’s security controls. Until
 security control weaknesses are corrected, the Criminal Investigation Division is jeopardizing the
 confidentiality, integrity, and availability of the System and the taxpayer data residing on it.




 1
   A Complete Certification and Accreditation Is Needed to Ensure the Electronic Fraud Detection System Meets
 Federal Government Security Standards (Reference Number 2006-20-178, dated September 29, 2006).
 2
   The period from January through mid-April when most individual income tax returns are filed.
                            Sufficient Emphasis Was Not Placed on Resolving
                               Security Vulnerabilities When Restoring the
                                    Electronic Fraud Detection System



Synopsis
On January 16, 2007, the IRS launched a restored EFDS. Prior to the System’s restoration, the
Mission Assurance and Security Services organization conducted a certification of the System
that included a thorough testing of the security controls in the application, database, and
supporting computers. The Criminal Investigation Division (the System owner) received these
test results prior to the System restoration in January 2007. The Mission Assurance and Security
Services organization followed National Institute of Standards and Technology3 guidance in
selecting the controls to be tested and in applying the appropriate test procedures to protect and
evaluate the confidentiality, integrity, and availability of the System and the taxpayer data
residing on it.
The EFDS security testing was conducted in two phases: one in September 2006 and one in
January 2007. The January 2007 test results identified 34 security vulnerabilities that were also
identified in the September 2006 test results. The vulnerabilities occurred in configuration
management, user identification, system and communications protection, and detection controls.
We believe the Criminal Investigation Division and the EFDS Project Office missed an
opportunity during the time between the two tests to correct some of the significant security
vulnerabilities prior to restoring the System.
Because the EFDS Project Office was primarily focused on implementing the restored System
for the start of the 2007 Filing Season, insufficient emphasis was placed on the System’s security
controls. In addition, the Criminal Investigation Division did not coordinate with nor pursue a
commitment from the EFDS Project Office to correct security vulnerabilities or plan corrective
actions for those vulnerabilities. As a result, the restored System continues to operate with
significant security vulnerabilities. Until corrective actions are taken, the Criminal Investigation
Division and the EFDS Project Office are jeopardizing the confidentiality, integrity, and
availability of the System and the taxpayer data residing on it.
We also noted the EFDS security certification memorandum contained a recommendation that
the Chief, Criminal Investigation, grant a “restricted authorization to operate” for a period of no
more than 1 year. A “restricted authorization to operate” is not a valid accreditation decision.
Based on National Institute of Standards and Technology guidance, an Interim Authorization to
Operate should be issued when significant vulnerabilities have been identified that can be
corrected timely. Considering the nature of the weaknesses identified for the EFDS, an Interim
Authorization to Operate would have been more appropriate and would have resulted in more
emphasis by IRS management to ensure the vulnerabilities were corrected.


3
 The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines, including minimum requirements, for providing adequate information security
for all Federal Government agency operations and assets.
                                                                                                               2
                         Sufficient Emphasis Was Not Placed on Resolving
                            Security Vulnerabilities When Restoring the
                                 Electronic Fraud Detection System



Recommendation
The Chief, Criminal Investigation, should issue an Interim Authorization to Operate for the
EFDS and require specific terms and conditions be met before an Authorization to Operate is
granted. The expiration date should be based on corrective action milestone dates for the
security vulnerabilities identified.

Response
IRS management disagreed with our recommendation, and the Chief, Criminal Investigation, has
granted the EFDS an Authorization to Operate. The Chief, Criminal Investigation, the
authorizing official who made the EFDS accreditation decision and to whom our
recommendation was made, did not respond to the draft report. The response was provided by
the Chief, Mission Assurance and Security Services, the certification agent who recommended
the Chief, Criminal Investigation, grant an Authorization to Operate. In the response, the Chief,
Mission Assurance and Security Services, stated that the decision of the Chief, Criminal
Investigation, to issue an Authorization to Operate is fully supported because (1) no “high”
security risks were identified for the EFDS and (2) an updated Plan of Action and Milestones is
in place and being maintained to address issues identified during the certification that have not
yet been resolved. Management’s complete response to the draft report is included as
Appendix IV.

Office of Audit Comment
We disagree with IRS management’s response to our recommendation. The weaknesses
identified during security testing increase the risk that unauthorized accesses to the EFDS could
be made without detection. We consider these weaknesses to be significant, thereby warranting
issuance of an Interim Authorization to Operate. We recognize the accreditation decision is
subjective; however, we believe an Interim Authorization to Operate is the more prudent
accreditation decision for the EFDS because it will bring increased attention to resolving the
significant security weaknesses of this important system.
While we consider our disagreement to be significant, we are not elevating it to the Department
of the Treasury Assistant Secretary for Management and the Chief Financial Officer. Our review
was limited to one system and consequently we have not identified a trend warranting their
involvement. Instead, we will be providing an informational copy of this report to the
Department of the Treasury Chief Information Officer under separate cover. Copies of this
report are also being sent to the IRS managers affected by the report recommendation. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
General for Audit (Information Systems Programs), at (202) 622-8510.

                                                                                                    3
                                 Sufficient Emphasis Was Not Placed on Resolving
                                    Security Vulnerabilities When Restoring the
                                         Electronic Fraud Detection System




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Security of the Electronic Fraud Detection System Was
          Adequately Tested ........................................................................................Page 3
          Security Vulnerabilities Identified During Testing Were Not
          Addressed Prior to Restoring the Electronic Fraud Detection System .........Page 3
          The Electronic Fraud Detection System Accreditation Decision
          Does Not Comply With Federal Government Security Standards ...............Page 4
                    Recommendation 1:..........................................................Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Management’s Response to the Draft Report ......................Page 10
               Sufficient Emphasis Was Not Placed on Resolving
                  Security Vulnerabilities When Restoring the
                       Electronic Fraud Detection System




                        Abbreviations

EFDS; System      Electronic Fraud Detection System
IRS               Internal Revenue Service
MA&SS             Mission Assurance and Security Services
NIST              National Institute of Standards and Technology
                            Sufficient Emphasis Was Not Placed on Resolving
                               Security Vulnerabilities When Restoring the
                                    Electronic Fraud Detection System




                                           Background

The Internal Revenue Service (IRS) Criminal Investigation Division is responsible for detecting
and investigating criminal violations of the Internal Revenue Code and financially related
crimes. The Electronic Fraud Detection System (hereafter referred to as the EFDS or System),
an automated compliance system, was designed to maximize fraud detection at the time tax
returns are filed, to prevent the issuance of questionable refunds. The System is the primary
information system used to support the Criminal Investigation Division Questionable Refund
Program and is the IRS’ second largest repository of taxpayer data. Because it contains and
processes highly sensitive taxpayer information, security over the System is vital to ensure both
the System and the data residing on it are protected from unauthorized access and misuse.
The EFDS began as a client-server application, allowing users to access the application through
the IRS network. In June 2001, the IRS approved the conversion to a web-based application,
which would enable users to access the System through the IRS Intranet. While the web-based
application was under development, the client-server application continued to operate. The
web-based application was expected to be available to process tax returns in 2006, so the
client-server application was shut down in December 2005. However, the web-based application
never became operational, and the client-server application could not be restored in time for use
during the 2006 Filing Season.1 As a result, in a previous audit report,2 we estimated
$318.3 million in fraudulent refunds may have been issued as of May 19, 2006.
In April 2006, the IRS stopped all development activities for the web-based application and
focused all efforts on restoring the client-server application for use in January 2007 for the
2007 Filing Season. The EFDS Project Office, located in the Modernization and Information
Technology Services organization, was responsible for restoring the application. On
January 16, 2007, the IRS launched the restored EFDS client-server application.
This review was a follow-up to a prior Treasury Inspector General for Tax Administration audit.3
In September 2006, we reported that the security of the System had not been properly assessed
since 2001. We recommended the Chief, Mission Assurance and Security Services (MA&SS),
coordinate with the Chief, Criminal Investigation, to complete a full security certification and
accreditation for the EFDS client-server application and supporting computers before the
restored System was permitted to operate. The Chief, MA&SS, agreed with our


1
  The period from January through mid-April when most individual income tax returns are filed.
2
  The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006).
3
  A Complete Certification and Accreditation Is Needed to Ensure the Electronic Fraud Detection System Meets
Federal Government Security Standards (Reference Number 2006-20-178, dated September 29, 2006).
                                                                                                       Page 1
                            Sufficient Emphasis Was Not Placed on Resolving
                               Security Vulnerabilities When Restoring the
                                    Electronic Fraud Detection System



recommendation and began coordination with the Chief, Criminal Investigation, to certify and
accredit the restored System.
This review was performed at the MA&SS organization office in New Carrollton, Maryland, and
the Enterprise Computing Center4 in Memphis, Tennessee, during the period November 2006
through February 2007. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 2
                            Sufficient Emphasis Was Not Placed on Resolving
                               Security Vulnerabilities When Restoring the
                                    Electronic Fraud Detection System




                                    Results of Review

The Security of the Electronic Fraud Detection System Was
Adequately Tested
National Institute of Standards and Technology (NIST) guidance5 describes certification as a
comprehensive assessment of the security controls in a system. An accreditation is an official
management decision to authorize the operation of an information system and to explicitly
accept the risk to agency operations, agency assets, or individuals based on implementation of an
agreed-upon set of security controls. IRS policies and Federal Government security standards
require that the security of all information systems be independently assessed, certified, and
accredited at least every 3 years. Regular testing of security controls is necessary to determine
the extent to which these controls are implemented correctly, operating as intended, and meeting
the security requirements for the system.
In our September 2006 EFDS security audit report, we stated that key application security
controls were not tested when the System was certified and accredited in 2004. Instead, testing
was limited to the supporting Windows-based operating system. As a result, the IRS had limited
assurance that the System security controls were effective in protecting taxpayer information
from unauthorized disclosure.
The recently conducted certification of the System included a thorough testing of the security
controls in the application, database, and supporting computers. The MA&SS organization
conducted the tests and reported the results to the Criminal Investigation Division (the System
owner) prior to the System’s restoration on January 16, 2007. The MA&SS organization
followed NIST guidance in selecting the controls to be tested and in applying the appropriate test
procedures to protect and evaluate the confidentiality, integrity, and availability of the System
and the taxpayer data residing on it.

Security Vulnerabilities Identified During Testing Were Not Addressed
Prior to Restoring the Electronic Fraud Detection System
NIST guidance states that security vulnerabilities identified during certification testing should be
listed in a Plan of Action and Milestones. This document describes the measures that have been

5
 NIST Guide for the Security Certification and Accreditation of Federal Information Systems (Special
Publication 800-37). The NIST, under the Department of Commerce, is responsible for developing standards and
guidelines, including minimum requirements, for providing adequate information security for all Federal
Government agency operations and assets.
                                                                                                       Page 3
                         Sufficient Emphasis Was Not Placed on Resolving
                            Security Vulnerabilities When Restoring the
                                 Electronic Fraud Detection System



implemented or planned to correct any deficiencies noted during the assessment of the security
controls and to reduce or eliminate known vulnerabilities in the information system. For the
EFDS, the Criminal Investigation Division is responsible for preparing, monitoring, and updating
the Plan of Action and Milestones until the security vulnerabilities are corrected.
The System security testing was conducted in two phases. The first phase, conducted in
September 2006, was based on the configuration of the System at that time. The second phase
was conducted in January 2007 after upgrades had been made to the database and operating
system. In the System security test plan, the MA&SS organization stated the decision to conduct
testing in two phases presented an opportunity to resolve any major vulnerabilities discovered
during the first testing phase.
The Criminal Investigation Division and the EFDS Project Office did not take advantage of this
opportunity and, therefore, security vulnerabilities still have not been corrected. The test results
in January 2007 identified 34 security vulnerabilities that had been initially identified in the
September 2006 tests. These security vulnerabilities occurred in configuration management,
user identification, system and communications protection, and detection controls. The MA&SS
organization characterized the combination of user identification and detection controls as
high-priority security vulnerabilities because an attacker could easily subvert an account with a
weak password with little chance of detection. Actions and milestones to correct these
vulnerabilities were not documented in a Plan of Action and Milestones until after the System
was restored and operating.
The EFDS Project Office was primarily focused on restoring the System for the start of the
2007 Filing Season and provided insufficient emphasis to correcting the System’s security
vulnerabilities. In addition, the Criminal Investigation Division did not coordinate with nor
pursue a commitment from the EFDS Project Office to correct security vulnerabilities or plan
corrective actions for those security vulnerabilities when they were identified in September 2006.
As a result, the restored System was implemented and continues to operate with significant
security vulnerabilities that jeopardize the confidentiality, integrity, and availability of both the
System and the data residing on it.

The Electronic Fraud Detection System Accreditation Decision Does
Not Comply With Federal Government Security Standards
Based on NIST guidance, the authorizing official must decide whether a system should be
allowed to operate. The authorizing official has three options: (1) authorize the system to
operate; (2) authorize the system to operate on an interim basis under strict terms and conditions,
known as an Interim Authorization to Operate; or (3) deny authorization to operate the system.
By approving operation of the system, the authorizing official assumes responsibility for the
system and becomes accountable for the risks associated with operating the system.


                                                                                              Page 4
                             Sufficient Emphasis Was Not Placed on Resolving
                                Security Vulnerabilities When Restoring the
                                     Electronic Fraud Detection System



The EFDS security certification memorandum contained a recommendation that the Chief,
Criminal Investigation, as the authorizing official for the System, grant a “restricted
authorization to operate” for a period of no more than 1 year. A “restricted authorization to
operate” is not a valid accreditation decision based on NIST guidance. We were advised that the
decision to grant the authorization to operate was made because the certifying agent and
authorizing official believed the vulnerabilities identified were not significant enough to warrant
issuance of an Interim Authorization to Operate. The term “restricted” was added to emphasize
to the authorizing official that the System would need to be recertified within 1 year due to the
importance of the System for identifying fraud each filing season.
NIST guidance states that an Interim Authorization to Operate is rendered when identified
vulnerabilities are significant but can be addressed timely. Considering the nature of the
weaknesses identified for the EFDS, an Interim Authorization to Operate should have been
issued.
We understand the Chief, MA&SS, as the certifying agent, intended to notify the authorizing
official that the System needed to be recertified within 1 year. However, because agencies are
measured on the percentage of systems that have full authorizations to operate,6 an Interim
Authorization to Operate is likely to bring more emphasis by IRS management to resolve a
system’s vulnerabilities, so it can receive a full Authorization to Operate. The Interim
Authorization to Operate should not be rescinded until the risks to the agency have been
decreased to an acceptable level.
Without additional emphasis by the IRS, we are concerned the significant vulnerabilities
identified for the EFDS will not be corrected in time for the next filing season. In addition, the
true status of security controls for the System is not being accurately reported.

Recommendation
Recommendation 1: The Chief, Criminal Investigation, should issue an Interim
Authorization to Operate for the EFDS and require that specific terms and conditions be met
before an Authorization to Operate is granted. The expiration date should be based on corrective
action milestone dates in the EFDS Plan of Action and Milestones.
        Management’s Response: IRS management disagreed with our recommendation,
        and the Chief, Criminal Investigation, has granted the EFDS an Authorization to Operate.
        The Chief, Criminal Investigation, the authorizing official who made the EFDS
        accreditation decision and to whom our recommendation was made, did not respond to
        the draft report. The response was provided by the Chief, MA&SS, the certification

6
  Federal Information Security Management Act, Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002). This law
requires agencies to report annually on the status of key security measurements, including the percentage of systems
certified and accredited.
                                                                                                            Page 5
                 Sufficient Emphasis Was Not Placed on Resolving
                    Security Vulnerabilities When Restoring the
                         Electronic Fraud Detection System



agent who recommended the Chief, Criminal Investigation, grant an Authorization to
Operate. In the response, the Chief, MA&SS, stated that the decision of the Chief,
Criminal Investigation, to issue an Authorization to Operate is fully supported because
(1) no “high” security risks were identified for the EFDS and (2) an updated Plan of
Action and Milestones is in place and being maintained to address issues identified
during the certification that have not yet been resolved.
Office of Audit Comment: We disagree with IRS management’s response to our
recommendation. The weaknesses identified during security testing increase the risk that
unauthorized accesses to the EFDS could be made without detection. We consider these
weaknesses to be significant, thereby warranting issuance of an Interim Authorization to
Operate. We recognize the accreditation decision is subjective; however, we believe an
Interim Authorization to Operate is the more prudent accreditation decision for the EFDS
because it will bring increased attention to resolving the significant security weaknesses
of this important system.




                                                                                   Page 6
                            Sufficient Emphasis Was Not Placed on Resolving
                               Security Vulnerabilities When Restoring the
                                    Electronic Fraud Detection System



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the security controls
testing conducted as part of the certification and accreditation of the EFDS (the System). To
accomplish this objective, we:
I.      Determined whether all applicable security controls were tested.
        A. Identified the mandatory controls for a moderate impact system from the NIST
           Recommended Security Controls for Federal Information Systems (Special
           Publication 800-53).1
        B. Compared the System controls tested during the security test and evaluation to the
           controls identified from Special Publication 800-53 for a moderate impact system and
           determined whether all recommended controls were tested.
II.     Determined whether all applicable controls were adequately tested to determine whether
        the controls were in place, operating as intended, and producing the desired results.
        A. For each control tested, identified the applicable assessment procedures from the
           NIST Guide for Assessing the Security Controls in Federal Information Systems
           (Special Publication 800-53A).
        B. Compared the test cases or assessment methods used to test the System controls with
           the recommended assessment procedures contained in Special Publication 800-53A to
           identify any gaps in the test cases.
III.    Determined whether the accreditation recommendation made by the MA&SS
        organization certification agent was supported by and consistent with the results of the
        security testing.
IV.     Determined whether all the System security vulnerabilities are being tracked for
        remediation.




1
 The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
                                                                                                        Page 7
                       Sufficient Emphasis Was Not Placed on Resolving
                          Security Vulnerabilities When Restoring the
                               Electronic Fraud Detection System



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Marybeth Schumann, Audit Manager
Joan Raniolo, Lead Auditor
Richard Borst, Senior Auditor
Michael Howard, Senior Auditor




                                                                                         Page 8
                       Sufficient Emphasis Was Not Placed on Resolving
                          Security Vulnerabilities When Restoring the
                               Electronic Fraud Detection System



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                         Page 9
        Sufficient Emphasis Was Not Placed on Resolving
           Security Vulnerabilities When Restoring the
                Electronic Fraud Detection System



                                                  Appendix IV

Management’s Response to the Draft Report




                                                          Page 10
Sufficient Emphasis Was Not Placed on Resolving
   Security Vulnerabilities When Restoring the
        Electronic Fraud Detection System




                                                  Page 11
Sufficient Emphasis Was Not Placed on Resolving
   Security Vulnerabilities When Restoring the
        Electronic Fraud Detection System




                                                  Page 12
